CERTIFICATE OF SERVICE
No. 20-472
HOLLYFRONTIER CHEYENNE REFINING, LLC, HOLLYFRONTIER REFINING &
MARKETING, LLC, HOLLYFRONTIER WOODS CROSS REFINING, LLC, & WYNNEWOOD
REFINING CO., LLC,
Petitioners,
v.
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.
I, Ryan C. Morris, do hereby certify that, on this eleventh day of February,
2021, I caused a copy and an electronic copy of the Motion for Leave to Dispense
with the Requirement of a Joint Appendix in the foregoing case to be served by first
class mail, postage prepaid, and by email, on the following parties:
MATTHEW WINKLE MORRISON
Pillsbury Winthrop Shaw Pittman
1200 Seventeenth Street, N.W.
Washington, D.C. 20036
matthew.morrison@pillsburylaw.com
(202) 663-8036
Counsel for Respondents Renewable
Fuels Association, American Coalition
for Ethanol, National Corn Growers
Association, National Farmers Union

ELIZABETH B. PRELOGAR
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
Counsel for Respondent
Environmental Protection Agency

/s/ Ryan C. Morris
RYAN C. MORRIS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

